The Library of Congress
 Office of the Inspector General




       Integrated Support Services

            Opportunities Exist to Improve
            Space Management

               Final Audit Report No. 2004-PA-104
                                         July 2005
                UNITED STATES GOVERNMENT                          LIBRARY OF CONGRESS
                Memorandum                                           Office of the Inspector General



TO:             James H. Billington                                                   July 20, 2005
                Librarian of Congress

FROM:           Karl W. Schornagel
                Inspector General
                                      




SUBJECT:        Opportunities Exist to Improve Space Management—
                Final Audit Report No. 2004-PA-104


This transmits our final report and addresses the response to our draft report distributed March
31, 2005. The report distributed for comment is unchanged and serves as the final report.
Therefore, we will not distribute additional copies to the offices that received the draft (Deputy
Librarian and Integrated Support Services). The written comments from ISS are attached.
To assist us with the audit, we engaged RTKL Associates, a top ten international architecture,
engineering, and planning firm. RTKL prepared the report distributed in March that includes
detailed recommendations to improve the efficiency and effectiveness of the Library’s space
planning process. Implementing these recommendations provides real opportunities for
ISS’ Facility Services office to better support the organizational, operational, and mission-related
goals of the Library, and the effective performance of its employees. The Executive Summary
begins on page i, and complete findings and recommendations appear on pages 9 to 16.

Based on ISS’ response to the report, we consider recommendations I. 1, II. 1., III. 1 and 2,
IV. 1, V. 1, 2, 3, and 4, and VI. 1, 2, and 3 resolved. Accordingly, ISS’ action plan should
address recommendations I. 2 and 3, II. 2 and 3, IV. 2 and 3, V. 5 in accordance with LCR
1519-1, Section 4B, and is due within thirty days.

We appreciate the cooperation and courtesies extended by personnel from ISS, Architect of the
Capitol, Library Services, and Congressional Research Service during the audit.

Attachment 1 - OIG Comments on Integrated Support Services’ Response
Attachment 2 - Integrated Support Services’ Response to the Draft Report


cc:    Deputy Librarian
       Director, Integrated Support Services
             The Library Of Congress
                  Office of Inspector General



                  Audit Report No. 2004-PA-104




RTKL Associates
March 2005
The Library of Congress                                   Final Audit Report No. 2004-PA-104
RTKL                                                                            March 2005



                              TABLE OF CONTENTS



EXECUTIVE SUMMARY                                                                  i



INTRODUCTION                                                                       1



BACKGROUND                                                                         2



OBJECTIVES, SCOPE, AND METHODOLOGY                                                  4



FINDINGS AND RECOMMENDATIONS                                                           9


I.      The Library Needs to Establish Consistent Space Utilization Metrics            9
       Recommendation(s)                                                           10


II.    The Library Should Develop Uniform Office and Workstation Standards... 10
       Recommendation(s)                                                           11


III.   The Library Should Establish Target Open Workstation to Closed              11
       Private Office Planning Ratios
       Recommendation(s)                                                           12


IV.    The Library Needs to Develop a Space Use Concept Plan                       12
       Recommendation(s)                                                           14


V.     The Library Should Develop Workplace Standards
       That Enhance User Productivity                                               14
       Recommendation(s)                                                            15


VI.    The Library Must Develop a Long-Term Strategic Plan for Space
        Strategies and Personnel Vacancies                                         15
       Recommendation(s)                                                            16


APPENDIXES
A. Existing Workplace Density                                                          17
B. Existing Office and Workstation Sizes                                               18
C. Workplace Density Study                                                             19
D. High Density File Room Study                                                        20
E. Existing Condition Summary                                                          21
The Library ofCongress                                      Final Audit Report No. 2004-PA-104
RTKL                                                                                March 2005




                              EXECUTIVE SUMMARY

The objective of this study was to assess the performance and management of the Library
of Congress' (hereafter referred to as the Library) space management operations to
determine spatial efficiency compared to other government agencies and the private
sector. The study included an evaluation of random office spaces as selected by the
Office of the Inspector General. RTKL focused on the Madison Building because the
Jefferson Building is an historic structure that would be difficult to modify and the
Adams Building is predominantly used as book storage space. Included in the study was
an evaluation of the Library's space standards based on approved staffing levels and
industry standards and recommendations for a more "standardized" approach to space
planning.


Overall, RTKL concludes that the Library's design layout of office-related space needs
significant improvement. Many of the areas within the Library are both under and over
utilized due to the lack of standards for space usage, including workspace standards as
well as standards for support functions. The Library's space management practices are
undergoing some changes, based on a previous study conducted by the OIG, which will
improve the process and results of the work provided by Facility Design and
Construction. However, the Library needs to develop a long-term strategy that allows for
making decisions to improve the efficiency of space and staff productivity. Our findings
and recommendations are summarized as follows:


The Library Needs to Establish Consistent Space Utilization Metrics

RTKL evaluated the randomly selected offices of the Library Service's (LS) Cataloging
units and those of the Congressional Research Service (CRS) and found a large
discrepancy between the utilization rates of the two service units. Although the
functional requirements of the two units are quite different, the large discrepancy stresses
the need for a standard space utilization strategy within the Library. Without a consistent
space utilization metric, the Library will not be able to establish spatial efficiencies
within service units and effectively maintain and manage space usage. We recommend
that the Library establish an appropriate metric for space utilization and evaluate each of
the service units for compliance. In addition, the Library should consider charging
service units for space usage as an incentive to manage space more efficiently.


The Library Needs to Develop Uniform Office and Workstation Standards

RTKL inventoried the third, fourth, and fifth floors of the Madison Building and found
47 different workstation and 30 different office sizes. It is our experience that it is
difficult and expensive to move people and departments quickly and efficiently when
there are such large variables in the number of standards for offices and workstations.
RTKL has found that many organizations and government offices are greatly reducing
the number of office and workstation sizes and are using consistent standards that are
based on job function, resulting in more efficient use of space. We recommend that the
Library develop consistent space standards that relate to job function and limit the
The Library ofCongress                                      Final Audit Report No. 2004-PA-104
RTKL                                                                              March 2005


number of standards to no more than three for all future projects. In addition, the Library
should present these standards to its unions for approval so that the bargaining process
during space review is eliminated.


Establish Target Open Workstation to Closed Private Office Planning Ratios

RTKL studied alternative office layouts on the 5th floor of the Madison Building utilizing
varying ratios of open workstations to closed offices. The ratios were 100:0, 80:20,
70:30, and 60:40. For each scenario, standard workstation sizes of 7'-6" x 10' and
offices of 10' x 15' were used because the sizes worked with the physical parameters of
the building. Further, the 70:30 ratio of open workstations to closed offices is most
consistent with the existing blended ratios of the Library Services Cataloging divisions
and CRS divisions that were studied. The 70:30 ratio provided for 277 staff with 195
Useable Square Feet (USF) per person.


Establishing planning ratios that work with the building modules will allow the Library to
increase flexibility and utilization and efficiency within their office space. We
recommend that the Library develop guidelines for planning ratios that relate to job
function and work within the physical characteristics of the Madison Building.


Develop a Space Use Concept Plan

While studying the sample service units within the Library, RTKL found that there was
no consistent planning concept for locating support spaces, office areas, and circulation in
typical configurations. RTKL has found that developing a planning concept that relates
to the planning depth, structural grid, and mullion spacing provides greater efficiencies.
In addition, a planning module can provide a framework for locating office areas along
the perimeter to allow access to natural light and exterior views, and locating support
spaces within interior space where natural light is not an issue. Support spaces can also
be located in consistent locations on each floor for efficiency and establishing way-
finding for visitors from other floors. There are currently 82 conference rooms
throughout the Madison Building totaling 25,782 SF. With past clients RTKL has found
that consolidating conference rooms and sharing them between departments provides for
more efficient space usage and often creates a reduction in overall square footage.
Similarly, the Library could realize efficiencies by consolidating and centrally locating
training facilities. We recommend that the Library develop a consistent approach for
spatial planning that maximizes worker access, in both offices and workstations, to
natural daylight and exterior views, and more efficiently utilize meeting and training
space.




Develop Workplace Standards that Enhance User Productivity

RTKL found that the current Library office environment does not support current best
practices in design for efficient and productive workplace environments. We recommend
that the Library do the following to improve the office environment:

    •    Develop workplace standards that support current ergonomic requirements.
The Library of Congress                                    Final Audit Report No. 2004-PA-104
RJKL                                                                               March 2005




    •   Develop filing standards or use efficient storage methods such as high density
        filing systems.
    •   Develop standards for common and special support spaces such as copy rooms,
        pantries, and meeting rooms.
    •   Develop consistent standards for technology support in conference rooms,
        including appropriate lighting.
    •   Develop methods to provide natural light and exterior views to staff.


Develop a Long-Term Strategic Plan for Space Strategies and Personnel Vacancies

Several initiatives underway at the Library are creating available space in the Madison
Building. These include moving the Motion Picture, Broadcasting, and Recorded Sound
Division to Culpepper, VA, and creating an Alternative Computing Facility in Manassas,
VA. In addition, two factors that may also have a significant impact on space
requirements within the Library include:

    •   Reduction in the Library's workforce as approximately 50% of the current staff is
        eligible for retirement over the next five years. Replacement strategies may
        impact future space needs.

    •   Fewer patrons are visiting the Library's reading rooms because of advancements
        in technology that allow materials to be available on-line. This could allow the
        Library to reduce the number of reading rooms and create additional available
        space.


RTKL recommends that the Library develop a long-term strategic plan that identifies
projected vacancies and under-utilized space within the Library along with a timetable
when available space will become available and establish a long-term space management
plan.


Detailed findings and recommendations begin on page nine.
The Library ofCongress                                        Final Audit Report No. 2004-PA-104
RTKL                                                                                  March 2005


                                    INTRODUCTION

RTKL has undertaken an assessment of the Library of Congress's performance and
management of space planning operations. Our objective was to determine if there is
economy and efficiency in space utilization compared to other government agencies and
the private sector. RTKL's study is in response to the Library's Request for Proposal
dated May 10, 2004 and based on the following criteria:


1.       To evaluate the design/layout of the office-related space including conference and
         reception areas, and training facilities. The spaces to be sampled have not been
         specifically identified, but must be representative of typical library space so that
         projections can be made from the contractor's work. The study is to include the
         evaluation of 250,000 SF of space.

2.       To determine if space is under-utilized or over-crowded based on approved
         staffing levels and industry standards, and to determine the square footage of the
         under utilization or square footage needed to relieve overcrowding.

3.       To provide alternative configurations for 10 to 15% of the offices that are
         underutilized and criteria for efficient space configuration with a graphic
         representation of floor plans. Considerations should be given to unique
         characteristics and planning constraints in each building. The alternative
         configurations will only require block planning. It is the Library's intention to
         use examples of before and after graphics showing under utilized space and the
         same space more efficiently configured.

4.       To compare the Library's present policies and procedures with best practices for
         management of space from the government and private sector, and document
         differences.

5.       To provide an overall assessment of long-term planning for space utilization
         considering the long-term initiatives as follows:

     •   Moving the Motion Picture, Broadcasting, and Recorded Sound functions to
         Culpepper, VA;
     •   Creating a new Alternative Computing Facility in Manassas, VA; and
     •   Responding to the reality of fewer patrons' visiting the library due to
         advancements in technology.
The Library of Congress                                       Final Audit Report No. 2004-PA-104
RTKl                                                                                March 2005


                                     BACKGROUND


The Library of Congress' headquarters consists of three Capitol Hill structures: the
Jefferson Building, the Adams Building, and the James Madison Memorial Building.
The Jefferson Building, completed in 1897, is a five-story structure totaling 890,000
square feet that includes a basement, cellar, attic, and top deck. Thirty-five individual
book stacks occupy approximately forty-four percent of the total available area. The
Adams Building, completed in 1938, is an eight-story structure, including a sub-basement
and cellar, totaling 762,000 square feet. Three-quarters of the total available area is used
for the storage of books, most of which are found in twelve levels of book stacks in the
building's center. The Madison Building is the newest of the Library of Congress'
buildings. Completed in 1981, the Madison Building contains over 2,100,000 square feet
of space. It is the fourth largest government building in the metropolitan area. It follows
the Pentagon, the Ronald Reagan Building, and the Federal Bureau of Investigation
Building.


The Library's Facility Design and Construction (FD&C), Facility Services, is responsible
for coordinating all space utilization, maintenance, relocation, renovation, new
construction, and public programs in Library facilities. FD&C is the liaison with the
Architect of the Capitol, who is responsible for the maintenance, operation, development,
and preservation of the Library of Congress' buildings.


Facility managers monitor maintenance and repair of the Library's three Capitol Hill
buildings plus the Little Scholars Child Care Center on East Capitol Street. These
facilities total approximately four million square feet. The Library also maintains an
additional 334,730 of leased facility space in the Washington Metropolitan area.
Included in the leased space is a 246,100 square foot warehouse operation in Landover,
Maryland and an 88,630 square foot facility on Taylor Street. Facilities Services is
currently working with the Architect of the Capitol to develop initial program
requirements for the design of a planned 166,000 square foot warehouse at Ft. Meade,
Maryland to replace this leased warehouse facility.

The Library is working on two major long-term initiatives: moving the Motion Picture,
Broadcasting, and Recorded Sound functions to Culpepper, Virginia, and creating a new
Alternate Computing Facility in Manassas, Virginia. These initiatives will impact
staffing at the Capitol Hill location. In the last several years there has also been a shift in
the way the Library of Congress' patrons use the vast resources they offer. As millions
of digitized documents become available on the Library's web site, fewer patrons are
visiting the Library in person. As a result, Facility Services now must weigh space
availability, corporate culture, mission, job requirements, technology changes, cost, and
efficiency when determining how to allocate space.


Space Management Processes

The Library's Office of the Inspector General audited FD&C in September 2002. This
audit provided 23 recommendations regarding process and management controls in order
to better serve their customers. Subsequently, in October 2004 the OIG issued a
The Library ofCongress                                      Final Audit Report No. 2004-PA-104
RTKL                                                                              March 2005


memorandum as a follow-up review of the audit recommendations. Based on the follow-
up review, the OIG determined that FD&C implemented 17 of the 23 recommendations.
Of the 6 recommendations that had not been fully implemented, FD&C had taken action,
but either additional action and/or more time was required to determine if the action will
achieve desired results.

Based on the memorandum FD&C has modified their present policies and procedures and
have now implemented the following:

   •   FD&C now forecasts projects 18 months in advance.
   •   Projects are assigned to a service unit team. Each service unit team is composed
       of a project coordinator, a senior and a junior Interior Designer. FD&C noted that
       based on the new project delivery system, the workloads for the design staff will
       be significantly increased.
   •   Based on a Memorandum of Understanding signed in 2003, the Library may now
       transfer funds to the AOC for projects, or hire contractors provided the AOC has
       oversight.
   •   Starting in 2005, FD&C will begin using MS Project Management to better
       manage each project. Safety Services, Information Technology Services,
       Architect of the Capitol, and the occupant will all get a hard copy of reports that
       show the steps for each project, including the time table. Occupants will know
       when each step should begin and finish.
   •   FD&C will also begin better monitoring the time spent on each project.
       Designers will be assigned hours based on the square footage of the project.
   •   In September 2005, a new automated Computer Aided Facilities Management
       (CAFM) system will be installed. This will allow FD&C to better track office
       usage, vacancies etc.
The Library of Congress                                      Final Audit Report No. 2004-PA-104
RTKL                                                                               March 2005




                 OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives and Scope

The objective of this audit was to study the space-planning program at the Library of
Congress and provide the following:


    •   Evaluation of the design/layout of office-related space, including conference,
        reception, and training areas.
    •   Evaluation of selected office space to determine efficiency, and identify under
        utilized and over-crowded conditions.
    •   Development of prototypical alternative configurations and/or design criteria for
        efficient space configurations.
   •    Evaluation of the Library's space standards based on approved staffing levels and
        industry standards, including recommendations for a more "standardized"
        approach to space planning and an assessment of the Library's Facility Design
        and Construction (FD&C) planning operations.
    •   Benchmark of current space management policies against industry 'best practices'
        and other government and private sector users.
   •    Assessment of long term planning strategies for space utilization.


As RTKL and the OIG toured the randomly selected spaces, the scope of RTKL's
assignment was changed, as it was determined that the spaces in the original selection of
office spaces were too small or inappropriate to have value for a space efficiency study.
In addition, the Jefferson Building was eliminated because it is an historic structure that
would be difficult to modify. The Adams Building was eliminated because it is
predominantly used as book storage space. Because of these factors, RTKL
recommended focusing on the Madison Building for this study.


Methodology

To accomplish the audit objectives, we: 1) conducted visual surveys of random samplings
of office space in the Library's three Capital Hill facilities; 2) developed a program
questionnaire, collected data, and conducted follow-up interviews with FD&C staff, AOC
management, and select building occupants regarding the Library's space procurement
and management policies; 3) performed a detailed efficiency analysis for select areas of
the office space at the Madison Building; 4) benchmarked the Library's space standards
and facility services processes with those of the World Bank because they occupy a
similar square footage in Washington, DC and are also part of the public sector.


RTKL conducted the work between September and December 2004, and the criteria used
to evaluate the audit included industry standards and best practices.
The Library ofCongress                                      Final Audit Report No. 2004-PA-104
RTKL                                                                              March 2005


Summary of Survey and Interview Process

The facility survey began with a tour of randomly selected spaces (as identified by the
Library/OIG), throughout the three existing Library facilities; the Madison, Adams, and
Jefferson buildings. On 20 September, the RTKL team and Library representatives
toured the spaces listed below.

Madison Building
    •   Ground Floor: ITS (1/3 of Group), LS/Preservation/Preservations Research &
        Testing Lab (not accessible because door was locked)
    •   First Floor: LS/Music Division Reading Room/Collections Office
    •   Second Floor: CRS/American Law Division
    •   Third Floor: LS/Motion Picture and Recorded Sound Division
    •   Prints and Photographs
    •   Fourth Floor: CRS/Office of Legislative Information and Technology Office
    •   Fifth Floor: LS/History and Literature Cataloging
    •   Sixth Floor: LS/Publishing Office and Office of Strategic Initiatives

Adams Building
    •   First Floor: Photo Duplication Service
    •   Fifth Floor: Science Business & Technology Reference Room
    •   Federal Research Division

Jefferson Building
    •   Ground Floor: Collections Access & Loan Management Division
    •   Second Floor: Hispanic Reading Room

Additional Tours (27 September 2004)
Because it was determined to change the scope of work to only the office spaces located
in the Madison Building, additional surveys became necessary. In addition, the OIG
requested that RTKL survey the following additional spaces:

Madison Building
    •   Sub-Basement Level: Parking Garage and Law Library Collection
    •   Basement Level: Geography & Map Collection Reading Room
    •   First Floor: Atrium, Madison Hall, and storage space across from Madison Hall
        (formally the Gift Shop)
    •   Second Floor: Exhibition Space and the CRS/LaFollette Reading Room
    •   Sixth Floor: Dining Area/Cafeteria

Further, the evaluation scope was revised to include a detailed program verification and
analysis of LS/History and Literature Cataloging Division and CRS/American Law
Division. RTKL was interested in evaluating LS History and Literature Cataloging
Division space because the layout of the work areas appeared over crowded with no
centralized support (See Figures 1 and 2 on the next page). As well, RTKL was
interested in evaluating the CRS/American Law Division because its closed office to
open workstation ratio appeared higher than other areas toured in the random sample.
We also observed that their collections were on standard shelving and we felt the space
The Library of Congress                                   Final Audit Report No. 2004-PA-104
RTKL                                                                            March 2005


could be more efficient if a high-density compact shelving system were utilized. In a
subsequent interview with CRS, we were told that the enclosed office ratio was high
because of confidentiality reasons, and that CRS is in the process of replacing the
standard shelving units with a high-density compact system.




Figure I - History and Literature Cataloging Division, 5th Floor Madison Building




Figure 2 - History and Literature Cataloging Division, 5th Floor Madison Building
The Library ofCongress                                      Final Audit Report No. 2004-PA-104
RTKL                                                                              March 2005




Interviews

The OIG recommended select individuals for interviews to discuss and understand the
current Library space allocation and modification process. Interviews focused on two
primary areas 1) collection of program data for select divisions to support the detailed
efficiency analysis; and 2) evaluation of current Library planning strategies as
implemented in the Madison Building. Interviews included the following:

    •   Library Services (27 September 2004)
    •   Facilities Design and Construction (30 September 2004)
   •    LS/History and Literature (1 October 2004). Note: This interview included
        detailed program verification review.
    •   Congressional Research Service (1 October 2004). Note: This was intended to be
        a program verification interview but the RTKL questionnaires were not
        completed.
    •   Office of Strategic Initiatives (13 October 2004)
    •   Architect of the Capitol (13 October 2004)


Efficiency Analysis

RTKL has evaluated the existing condition floor plate of the Madison Building and
analyzed factors that impact planning as follows:
    •   Planning Depths (the plannable dimension from the building exterior wall to the
        core wall)
    •   Structural Grid (the spacing between the structural columns within the building,
        which affects planning efficiencies)
    •   Mullion Spacing (the spacing between the mullions on the exterior wall, which
        determines the spacing of office walls along the perimeter of a building)
    •   Space Types (office and workstation sizes)
    •   Shared/Common Use Spaces (conference rooms, reading/stack spaces, unused
        and under-utilized spaces)

As well, RTKL has evaluated the design/layout of the office-related space included in the
random sample as well as the additional spaces identified on Page 5.


Benchmark Study of Space Management Process

RTKL has compared the current space management process utilized by the Library's
FD&C and the space management process that is in place at the World Bank's Facility
Group. The following observations were noted:

    •   FD&C is made up of approximately 11 Senior Designers, 4 Junior Designers, and
        1 Division Head.
    •   The World Bank's facilities department is made up ofl Business Manager, 2
        Exhibit Management and Special Project's Staff, 8 Client Representatives (each
The Library of Congress                                      Final Audit Report No. 2004-PA-104
RTKL                                                                               March 2005


        represent a building or buildings), 11 Construction Managers and Engineers, 9
        Building Engineers, 1 Real Estate and Planning staff 3 Facilities Information
        Analysts (CADD), 3 Facilities Relocation Specialists and 1 Fire and Life Safety
        Staff


    •   The Library has no space standards.
    •   The World Bank has very strict space standards that include only 2 office sizes.
        These space standards were established by the Facilities Group and are fully
        supportedfrom the top ofthe organization.


    •   The Library does not charge back for space.
    •   The World Bank began charging backfor space in 1993 and this has provided a
        positive incentive for users to manage their space more efficiently.


    •   The Library occupies approximately 4 Million SF in three owned buildings on
        Capitol Hill.
    •   The World Bank occupies 4 Million SF in five owned and three leasedfacilities.


    •   The Library completed approximately 48 projects last year.
    •   The World Bank completed between 300- 500 projects last year, including small
        moves, large moves, capital improvements such as chiller replacement, and
        special projects.


    •   The Library's projects are initiated by the service units.
    •   The World Bank's projects are initiated by the client groups.


    •   The Library's projects can be prioritized by the Librarian or Congress.
    •   The World Bank's projects can be prioritized by the President ofthe WB or a VP.
The Library of Congress                                      Final Audit Report No. 2004-PA-104
RTKL                                                                                 March 2005




                     FINDINGS AND RECOMMENDATIONS

Evaluations of space and space management process were benchmarked against current
industry standards and 'Best Practices' for both Government and private sector
workplaces, and the following issues were identified.

I.      The Library Needs to Establish Consistent Space Utilization Metrics

Based on the random sample evaluation, RTKL evaluated and compared density and
utilization rates for 156,899 Useable Square Feet (USF) of existing LS/Cataloging space
on the fifth floor to 208,000 USF of Congressional Research Services (CRS) space on the
second, third, and fourth floor of the Madison Building.

Our analysis indicated that there is a wide discrepancy in space utilization metrics
between service units: Cataloging is at 151/USF per person, while CRS is at 258 USF per
person. Although CRS generally has staff at higher-grade levels, and the work performed
by the LS/Cataloging and CRS is quite different, the large discrepancy in space
utilization between the two units and the numerous workstation and office configurations
addressed subsequently in this report highlights the lack of a standard space utilization
strategy within the Library.


By not establishing and maintaining standards for space utilization the Library is unable
to determine efficiency within its service units. The lack of standards also promotes an
environment where users feel they must maintain all space, even if it is not being used,
because they are not confident that there are systems in place to ensure their space
requirements can be met if circumstances change. Finally, the lack of space utilization
metrics makes the FD&C's job of maintaining and managing space within the Library
difficult as there are no guidelines to establish the quantity of space a user is entitled to
when requests are submitted for space modifications.

Based on the International Facility Management Association (IFMA) benchmarking and
RTKL best practices, typical target ratios for federal agencies and private sector
companies range from 185 USF to 250 USF per person. The GSA's "The Integrated
Workplace" stated target ratio is 200 USF per person. RTKL has seen other government
agencies with specialized support requirements with utilization rates ranging from 230 -
250 USF per person.


The following table shows a comparison of USF Metrics at other government agencies:

Organization                                     USF / Person
Library of Congress                              151-258*
The World Bank                                   210
Florida State Employees                          180
GSA                                              200
FDA                                              250
 * Includes only metrics for the CRS and Cataloging Divisions (See Appendix A).
The Library ofCongress                                      Final Audit Report No. 2004-PA-104
RTKL                                                                              March 2005




Recommendations

The Library of Congress should do the following:

1.     Establish an appropriate metric for space utilization and evaluate each service unit
       for compliance. By establishing an appropriate standard for space utilization the
       Library can work toward setting user's expectations for space and develop a
       framework for the process of determining the allocation of space based on an
       actual metric rather than an arbitrary method that is unclear to both the FD&C
       group and the user.

2.     Once the Library has determined the appropriate metric for space utilization, they
       should present it to the Library's unions for approval. It has been RTKL's
       experience that if the union representatives review and approve the metrics before
       implementation, the process of implementation is improved.

3.      Consider implementing a process to charge Service Units for space usage.
        RTKL's work with other organizations that developed processes to charge their
        Business Units for space usage has shown that there is a positive incentive for the
        Business Units to manage their space more efficiently.


II.     The Library Should Develop Uniform Office and Workstation Standards

As part of this study, RTKL inventoried existing workstation and office sizes on the third,
fourth, and fifth floors of the Madison Building. On these three floors, the Library has a
total of 47 differently configured workstations and 30 different enclosed office sizes (See
Appendix B).

As a means of comparison, the World Bank has approximately 4 million SF of office
space in Washington DC. The Bank formerly had 7 million SF, but reduced their real
estate holdings by limiting the amount of workstation and office standards. The current
standards are 120 SF for both enclosed and open workstations for Directors and below
and 225 SF for Vice Presidents. In addition, the Government Accountability Office
(GAO) uses the following standards: Workstation - 64 SF, Interior Office (GS level 13,
14, 15) -150 SF, and Senior Executive Office - 300 SF.

It is difficult and costly (i.e.: churn costs) to move people quickly and efficiently when
office and workstation sizes are not consistent or vary greatly, and are based on job levels
rather than functional requirements. In addition, the Library is subject to continuous
bargaining with its labor unions because of the lack of clear and consistent workplace
standards that are not tied to job function.

Today's organizations have greatly pared down the number of office and workstation
sizes and are using consistent standards to manage workspace allocations. Many
organizations have reduced the number of standards to as few as three to allow workers
to move with minimal reconfiguration, thereby increasing the flexibility of office space.



                                               10
The Library of Congress                                        Final Audit Report No. 2004-PA-104
RTKL                                                                                 March 2005


Recommendations

The Library of Congress should do the following:

        1.   Develop consistent written space standards for long-term implementation that
             relate to job function (such as cataloging) rather than job level, in an effort to
             manage workplace and space allocations.

        2.   Create no more than three different office sizes and configurations to be used
             for any future projects. This will provide flexibility for workers to move
             without costly changes and modifications.

        3.   Present standards to the Library's unions for approval prior to implementation
             so that the unions do not have to review every modification made to a service
             unit. The unions will only need to review the user's space assignments once
             the physical modification is made.


III.    The Library Should Establish Target Open Workstation to Closed Private
        Office Planning Ratios

RTKL studied alternative office layouts using an approximate 54,000 square foot block
of space in a LS Cataloging division on the 5th floor of the Madison Building. The study
compared workstation to enclosed office ratios of 100:0, 80:20, 70:30, and 60:40 (See
Appendix C).


In each of these studies, RTKL utilized a more universal approach to office planning by
limiting the size of the workstations and enclosed offices. The planning module we used
was a 7'-6" x 10' open workstation and a 10'xl5' enclosed office. This module was
chosen because it worked well within the existing physical parameters of the Madison
Building, including the core depth, window mullion spacing, and structural grid.

The 100:0 open workstation layout provided for 298 people, and 181 SF per person; the
80:20 layout provided for 301 people, and 179 SF per person; the 70:30 layout provided
for 277 people and 195 SF per person and the 60:40 provided for 256 people and 211 SF
per person. Based on the Library's current layouts, RTKL believes the 70:30 mix of
workstations to offices would be the most appropriate because it is more consistent with
the blended ratios (70:30) of open workstations to closed offices that were seen on the
two floors that were studied.

By establishing target planning ratios that work with the building modules the Library
will increase the flexibility of its office space as well as the overall utilization and
efficiency of space.

Recommendations

The Library of Congress should do the following:




                                                11
The Library ofCongress                                      Final Audit Report No. 2004-PA-104
                                                                                  March 2005



1.     Develop guidelines for appropriate planning ratios based on job function that
       work within the physical parameters of the Madison Building.

2.      Begin implementation of planning ratios as projects are approved to move
        forward.


IV.     The Library Needs to Develop a Space Use Concept Plan

RTKL found that the Library did not have a consistent planning concept for locating
support spaces, office areas, and circulation in typical configurations. RTKL studied a
typical LOC floor plan, and graphically indicated our recommendations for an alternate
use of space. The 'Space Use Concept Plan' we developed revolves around the primary
circulation and core areas and illustrates our recommendations for locating divisions and
centralized division support, centralized conference/lounge areas, alternative uses of
space for non-daylighted areas (space in the center of the building) of the floor plan (See
Appendix B). This plan also includes the concept of shared conference/training rooms.

Developing a planning concept that relates to the building's characteristics i.e.: planning
depth, structural grid, and mullion spacing, allows for greater efficiencies. This also
creates a framework for locating offices and workstations in areas along the building
perimeter that allow access to natural daylight and views for the workers rather than
using that space for support activities (conference/training rooms, copier, pantries,
storage, book shelves) which have no full-time staff.

RTKL determined that the Library has conference rooms located within each office.
We have found that most clients are moving toward centralizing conference and training
rooms and sharing them between offices. Consolidating and centrally locating
conference rooms can provide the Library with space efficiencies as well as optimize the
technology in the rooms (as discussed in the next finding). FD&C floor plans indicate
that the Madison Building has 82 conference rooms totaling 25,782 USF. (See Appendix
E) This would necessitate assigning an office responsibility for taking reservations for
the central conference and training rooms.

 Support spaces should be placed in consistent locations where possible on each floor for
 greater efficiency as well as providing way-finding clues for the building users. As
 Figures 3 and 4 below illustrate, floor plans often do not include dedicated space for
 pantry items. It has been RTKL's experience that these types of planning standards
 benefit the organization by saving design and construction costs as well as by increasing
 efficiency (See Appendix B for the Space Concept Plan).




                                              12
 The Library of Congress                                 Final Audit Report No. 2004-PA-104
RTKL                                                                           March 2005




Figure 3- History and Literature Cataloging Division, 5 Floor Madison Buildin




Figure 4 - History and Literature Cataloging Division, 5th Floor Madison Building


                                          13
The Library ofCongress                                       Final Audit Report No. 2004-PA-104
RTKL                                                                               March 2005


Recommendations

The Library of Congress should do the following:

1.       Develop a consistent approach for spatial planning, including zoning support vs.
         office function for typical floor and strategies for centralized common support
         space.



2.       Develop strategy to maximize worker access to natural daylight and views to the
         outdoors in an effort to maximize worker productivity and job satisfaction.


3.       Consolidate and centralize the conference and training rooms into one area
         located centrally on each floor. Assign an office responsibility for handling the
         reservations for these rooms.

V.       The Library Should Develop Workplace Standards that Enhance User
         Productivity

Although the Library is in the process of retrofitting some workstations with ergonomic
work surfaces, RTKL believes that more needs to be done to comply with current best
practices in design for efficient and productive workplace environments. Our
observations of deficiencies include the following:

     •   Workstations are not consistently configured to support the users' functional
         requirements and work processes, nor do they meet most current ergonomic
         standards. Effective and efficient workspaces can lead to greater productivity and
         employee satisfaction. In addition, according to OSHA guidelines, workstations
         that are designed to meet current ergonomic standards offer the following
         benefits:
             >    Decreased injury risk
             >    Increased productivity
             >    Decreased mistakes/rework
             >    Increased efficiency
             >    Decreased lost work days
             >    Decreased turnover
             >    Improved morale
     •   There are no consistent filing standards or use of efficient storage methods, such
         as high density filing systems. Standardization of filing can create more efficient
         use of space. Likewise, utilizing high density filing systems can reduce space
         requirements from 35 - 40%.
     •   There is no standard for common and special support areas, such as copy rooms,
         pantries, and conference and meeting spaces. Establishing standards for common
         support areas can provide for more efficient space usage, as well as locating
         support areas in spaces that are appropriate and consistent, which allows for
         proper ergonomic layout.
     •   There are no consistent standards for technology support in conference rooms and
         other meeting spaces. Most large organizations are outfitting their conference
         rooms and meeting spaces with consistent technology configurations so that


                                              14
The Library ofCongress                                         Final Audit Report No. 2004-PA-104
RTKL                                                                                 March 2005


          user's can reserve any room and have the required technology available, allowing
          greater flexibility and ease of use. In addition, conference rooms should be
          configured with appropriate lighting, which supports the technology
          configuration.
      •   Access to natural light and views to the outside are not consistently available to
          staff. It has been proven that providing access to daylight and views to the
          outdoors increases worker productivity, morale, and overall physical well-being.

Recommendations

The Library of Congress should do the following:

1.        In conjunction with the recommendations in Finding II, develop consistent
          workplace standards that support current best practices and productive workplace
          environments.


2.        Develop workstation standards that meet all current ergonomic standards and
          functional requirements.


3.        Establish consistent filing standards and consider more efficient storage methods,
          such as high density filing systems. FD&C should conduct a cost/benefit analysis
          to determine the benefit of compact shelving as well as consult with the AOC to
          assess structural load issues.


4.        Establish consistent standards for support areas.


5.        Develop consistent standards for technology in support spaces such as meeting
          rooms.



6.        Develop standards that maximize employee access to natural light.



VI.       The Library Must Develop a Long-Term Strategic Plan for Space Strategies
          and Personnel Vacancies

The Library has several initiatives underway for freeing up space and they include:

      •   Moving the Motion Picture, Broadcasting, and Recorded Sound functions to
          Culpepper, VA.
      •   Creating a new Alternative Computing Facility in Manassas, VA.

RTKL has been unable to determine how much space may become available when the
Motion Picture, Broadcasting, and Recorded Sound function moves to Culpepper.
Library Services indicated that there would be as much as 150,000 SF available, while
Facility Services indicated that there might be 43,000 SF.

If the Library were to free up space in the Madison Building one strategy for reducing
costs would be to relocate approximately 88,000 SF for the National Library Service for


                                                15
The Library ofCongress                                        Final Audit Report No. 2004-PA-104
RTKL                                                                                March 2005


the Blind and Physically Handicapped from a leased facility on Taylor Street. The
relocation of this operation to the Madison Building could save the Library
approximately $1M per year in rent.


The other two major factors impacting space at the Library are as follows:
     •   A significant percentage of the workforce will be eligible to retire over the next
         five years. The OIG has recommended that the Library formalize a Succession
         Planning Program that is tied to its Strategic and Training Plans. In addition, the
         OIG recommends that the Service Units must identify critical positions and
         consider the Library's hiring process and its impact on studying the Library's
         Succession Planning. The Succession Plan that will eventually be implemented
         by the Library's Service Units will impact the size of the future workforce. The
         size of the Library's future workforce will also have a significant impact on the
         Library's space requirement and should be considered in any long-term strategic
         space plan.
     •   Fewer patrons visit the library's reading rooms because millions of documents are
         now available on line and therefore limiting the number of in-person visits
         required to access the Library's resources. The Library could better utilize the
         reading room space, which would result in greater economy and efficiency in
         space utilization.


Recommendations

The Library of Congress should do the following.

1.       Develop a long-term strategic plan that identifies potential vacancies, a timetable
         for available space, and establish long-term space management plan.

2.       Identify and quantify potential under-utilized space within the Madison Building
         to serve as swing space during re-design projects.


3.       Determine the feasibility of moving Library operations located at Taylor Street
         Annex to the Capitol Hill complex based on opportunities for greater efficiency in
         space utilization and space being vacated for relocation to off-site facilities.




                                              16
The Library of Congress                 final Audit Report No. 2004-PA-104
                                                              March 2005


                          Appendix A




  Due to their large format, the appendices are not included
  in this electronic version.




                               17
                                                                                     Attachment 1

                OIG Comments on Integrated Support Services’ Response

ISS provided comments concerning our findings, conclusions, and recommendations; as well as
planned corrective actions, and agreed with 12 of the 20 recommendations. For the remaining
eight recommendations, ISS often disagreed with the specifics or the feasibility of the
recommendation rather than disputing the validity of the deficiency finding. Any alternatives
for addressing the issues should be included in ISS’ Action Plan.

ISS has made significant progress and expects to continue making improvements in its
infrastructure management, but much work remains to be done. We recognize that ISS will not
be able to fully implement most of the recommendations within a year. Facility transformation
requires long-term cultural change, business process reengineering, and a commitment from
both the Library’s senior management and the service units. Due to the complexity and long-
term nature of the recommended improvements, strong and sustained executive leadership is
needed if these initiatives are to succeed.

General Comments:

ISS responded that “Prior to the initiation of this audit Facility Services had already identified
most of the auditor’s recommendations and had already taken substantial action toward
implementation of these into its business process. However, this audit report does not take
into account or recognize any of these actions already implemented by Facility Services.” We
believe our review of the Library’s space management program was objective, balanced, and
represented program conditions existing at the time we completed our review in December
2004. We recognized the positive aspects of FD&C that are applicable to the audit objectives.
For example, in the second paragraph of the Executive Summary we noted that the Library’s
space management practices are undergoing some changes that will improve the process and
results of the work provided by FD&C. Likewise, on page three we detail six actions FD&C
has taken to improve its operations.

We disagree with Facility Services’ contention that it has taken “substantial action toward
implementation” for most of our recommendations. While we agree that FD&C was aware of
most of the deficiencies and acknowledge that it has drafted task orders for a contractor to
analyze the deficiencies and make recommendations, this represents plans rather than actions.
Government Auditing Standards on reporting the views of responsible officials states,
“Comments, such as a promise or plan for corrective action, should be noted but should not be
accepted as justification for deleting a significant finding or a related recommendation.”

ISS stated that recommendations I.1, II.1, III.1, IV.1, and V.I. were “already in process” and
“FD&C had already incorporated this requirement into a task order for standards
documentation through an existing FD&C contract.” We note that as of June 29, 2005, FD&C
had drafted a task order but had not forwarded it to the Contracting Office for bids. The draft
task order included “Provide a written document with recommendations on a LOC policy for
implementing the new space standards being proposed.” We agree that the task order
deliverables are an important first step toward Facility Services effectively managing space.
However, until the Contracting Office awards the task order and the contractor delivers the
space standards plus an implementation strategy and policy, we do not agree with ISS that it has
“taken substantial action toward implementation.”

ISS’ statement that it had already started establishing an appropriate metric for space utilization
(Recommendation I.1), and developing consistent written space standards for long-term
implementation that related to job function (recommendation II.1), is correct but occurred after
we completed our fieldwork. The Head of FD&C told us during an audit interview on
September 30, 2004 that, “It has been an approach to plan to the space and the customers’
individual preferences.” She also stated that workplace standards were “very limited in terms of
industry standards.” This indicated to us that ISS had not established metrics. The draft task
order does include evaluating existing conditions and recommending standard sizes based upon
job function. However, as stated above, ISS did not mention this during the audit or the exit
conference, and had not forwarded this task order to the Contracting Office as of June 29,
2005.

We attempted to work collaboratively with Facility Services. Before engaging RTKL, we
sought Facility Services’ input on the scope and deliverables for the consulting contract for this
audit. Facility Services did not respond to our request. These attempts to work collaboratively
occurred before ISS appointed a new FD&C Head. During our fieldwork, the newly hired
FD&C Head fully cooperated and greatly assisted us with this audit. We were also led to
believe that ISS supported centralized space management. However, the ISS response does not
reflect this position.

ISS is correct concerning a misstatement in the “Background” section of the report. The
contractor inadvertently referred to Facility Design and Construction instead of Facility
Services (page 2, paragraph 2).

We disagree with ISS that the World Bank is an unfair comparison to the Library of Congress.
RTKL used the World Bank as a benchmark because it has about the same amount of
personnel and square footage in Washington as the Library, plus RTKL was very familiar with
its facilities operation. Even though functions of the organizations are in some cases different,
our consultant believes there are enough similarities to make a useful benchmark comparison.
To ensure objectivity, we also provided comparisons with the General Services Administration,
Food and Drug Administration, and the Government Accountability Office.

ISS responded that in addition to the 48 projects FD&C completed, it also handled 1,100
Requests for Services. At a meeting subsequent to submitting its comments, ISS informed us
that the 1,100 requests did not include requests to the AOC for services such as light bulb
replacement or spot cleaning carpeting that require minimal effort from FD&C. Since we did
not review each of these 1,100 orders, we can not comment on whether they are comparable to


                                                2
the World Bank’s orders. Nevertheless, the comparison of work orders is contained in the
“Background” section and our findings did not include any recommendations regarding FD&C
manpower or efficiency.

Specific Recommendations That Were Not
Fully Accepted by ISS and OIG Comments:

Recommendation I.2:

ISS disagreed with the recommendation to discuss appropriate metrics for space utilization with
the unions. We agree with ISS that it should first present any space utilization metrics to the
Deputy Librarian for approval and then to the Library’s Executive Committee. This approval
process is what we meant when we said, “Once the Library has determined the appropriate
metrics for space utilization…” Standards that are based on actual metrics rather than an
arbitrary method could be bargained upfront with the unions to reduce the need to negotiate
every office move. (Also see II.3 below.)

Recommendation I.3:

ISS disagreed with our recommendation to consider implementing a process to charge service
units for space usage to improve efficiency. In our opinion, the recommendation has merit.
The Central Intelligence Agency is presently using a similar system. Whether or not a
conventional charge-back is feasible, ISS needs to begin managing space effectively. In addition
to a charge-back system, ISS should explore other models. For example, the Federal Highway
Administration allows every office the same square footage per person with a “plus factor” for
support space. It then monitors the utilization rates of every office and determines which
offices should be given more space, and which should release space if the opportunity arises.
As described in the General Comments section on the first page of this attachment, an
alternative solution is certainly acceptable if it will result in more effective management of
space.

Recommendation II.2:

ISS disagreed with our recommendation to create no more than three different office sizes and
configurations. However, it did not address our finding that 47 different workstation
configurations and 30 different enclosed office sizes on three floors is excessive customization
and is not conducive to efficient office moves. We agree that a limit of three office
configurations may not be practical. However, ISS needs to determine a reasonable number of
configurations (a relatively small number) and require the service units to select from these
limited configurations when redesigning their space.




                                               3
Recommendation II.3:

ISS disagreed with our recommendation to present the space standards to the unions so that
negotiations over space are not necessary for every office redesign or move. We agree with ISS
that the unions may not “waive future bargaining rights they now enjoy.” However, we believe
ISS needs to meet with HRS’ Workforce Services, and ask that the standard space allowance
and office configurations be discussed when the next collective bargaining agreement is
negotiated. The purpose of this recommendation is to allow Facility Services to operate more
efficiently when moving offices.

Recommendations IV.2 and V.6:

ISS agreed with the underlying principle but disagreed with the recommendation to develop a
strategy to maximize worker access to natural daylight and views to the outdoors. ISS stated
that in general, it followed this concept whenever possible. Our observations of recent
redesign work indicate otherwise. For example, the Office of the Chief Financial Officer
redesign last year placed enclosed offices next to windows previously occupied by desks with
free standing dividers. More recently, the redesign of space in LM-630 for the Office of
Strategic Initiatives placed enclosed offices next to the windows. This indicated to us that the
service units still determine the arrangement of space, and provide higher graded staff window
offices. Subsequent to submitting its comments, ISS informed us that the examples cited above
represent design work initiated three or more years ago. FD&C’s current design work tries to
follow our recommendation. A major theme of our report is that Facility Services needs
centralized authority over decision-making for office space. For this to happen, FD&C will
have to convince service units of the overall benefits to productivity by not constructing
enclosed offices next to the windows.

Recommendation IV.3:

ISS agreed with the underlying principle of the recommendation. However, it thought
consolidating and centralizing conference and training rooms on a service unit and support unit
basis would be more practical than by floor. We agree it may be more practical to implement,
however, it will not ensure optimal use of the space. As stated above, Facility Services needs to
have centralized control over space to ensure it is efficiently used. Decentralized control has
resulted in 82 conference rooms totaling 25,782 square feet in the Madison Building. Allowing
service units to control these rooms hinders Facility Services’ ability to monitor usage and make
informed resource allocation decisions. With centralized authority, we believe Facility Services
can reduce the number of separate rooms while providing improved facilities with better
technology as discussed below in recommendation V.5.

Recommendation V.2:

ISS disagreed with our recommendation to develop workstation standards. RTKL based this
recommendation on its observations during a walk-through of the Madison Building,


                                                4
particularly the History and Literature Cataloging Section. Given that apart from this report
ISS recognizes that 80 percent of the workstations in the Madison Building need ergonomic
upgrades, we consider this finding resolved.

Recommendation V.5:

ISS disagreed with our recommendation to develop consistent standards for technology in
support spaces, stating that it is the service units’ responsibility. ISS needs to consider this
recommendation in connection with our recommendation IV.3 to have a bank of conference
and training rooms not dedicated to any specific service unit. ISS would be responsible for
designing the rooms with state of the art audio-visual equipment, lighting, etc. Of course, ISS
should seek input from the service and support units, and research best industry practices.

Recommendation VI.1:

ISS agreed in part with our recommendation to develop a long-term strategic plan that
identifies potential vacancies, a timetable for available space, and to establish a long-term space
management plan. ISS stated, “There is no way for ISS to determine ‘potential vacancies’ of
staff.” We disagree. Working collaboratively with Human Resources Services and the Budget
Office, ISS can be aware of staffing trends based on retirement estimates and program
downsizing. For example, the Cataloging Directorate has undergone significant downsizing
without funding to hire additional staff. ISS needs to be aware of these trends and manage
space accordingly. We believe that ISS is coordinating with the service units for major
initiatives during the support requirements meetings for the AP3 process. We therefore
consider this recommendation resolved.

Recommendation VI.3:

ISS disagreed with the recommendation to determine the feasibility of moving NLS/BPH to
the Library’s Capitol Hill complex. ISS cited that NLS/BPH has very special needs that can be
more effectively met at its Taylor Street facility, at this time. After receiving ISS’ comments, we
met with the Facility Services Officer and the FD&C Head to discuss this matter. They
provided some clarifying information. Facility Services has initiated a Task Order to develop a
Requirements Document for NLS/BPH. When this task is completed, FD&C will decide
whether it is more cost efficient to lease space, buy a new facility, or move NLS/BPH to the
Library’s Capitol Hill Headquarters. Based on this information, we believe ISS is taking
appropriate action to address our finding. We will review the requirements document as part of
our follow-up.




                                                 5
                                                                                             Attachment     2
UNITED STATES GOVERNMENT                                         LIBRARY OF CONGRESS

Memorandum                                                       Integrated Support Services

   TO:               Karl W. Schomagel                               DATE:     May 6,2005
                     Office of the Inspector General

  FROM:             Mary Levering
                    Director, Integrated Support Sefvlcef

  SUBJECT:          Integrated Support Services* Response to Audit No.: PA-2004-104




                   On behalf of Integrated Support Services and the Facility Services division, we thank you for
  the opportunity to comment on the draft report on Space Management from the contractor, RTKL, on Audit
  PA-2004-104. The research data and accompanying graphics help to confirm the value and importance of
  ISS and Facility Services on-going and continued efforts toward space modernization and improved service
  delivery for the Library. As you know, ISS Facility Services is in the early stages of developing a Computer
  Aided Facility Management (CAFM) system for the Library. This system will serve as a crirical!componenl
  of the ISS space planning and utilization activities in the coming years.      :

                    Attached is Integrated Support Services' response to the draft audit report. Again, thank you
  for the opportunity to respond.



 Attachment

 cc w/copy of attachment:
       Mary Levering, Director, ISS
       Neal Graham, Chief, Facility Services
       Jim Duda, Facility Services Officer
         Charon Ware, Facility Design and Construction Office




 File: I:\director\mlev\audit\Memo Audit -PA-2004-I04.wpd
                           Integrated Support Services response
                          to Draft Audit Report No. 2004-PA-104
                                        March 31, 2005


General Comments;
1.   Prior to the initiation of this audit Facility Services had already identified most of the
     auditor's recommendations and had already taken substantial action toward
     implementation of these into its business processes. However, this audit report does not
     take into account or recognize any of these actions already implemented by Facility
     Services.


2.   Page 2, paragraph 2 of the draft report misstates the responsibility of Facility Design and
     Construction (FD&C). FD&C, which is one section of the Facility Services division, is ':
     limited to new construction, space utilization, relocation and renovation. Facility         •
     maintenance and public programs are responsibilities of separate sections under Facility :
     Services. Maintenance is handled by Facility Operations and Public Program Services -
     handles public meeting space. The paragraph should read:
             The Library's Facility Services, Integrated Support Services, is responsible for
             coordinating all space utilization, maintenance, relocation, renovation, new
             construction, and public programs in Library facilities. The Chief of Facility
             Services is the liaison with the Architect of the Capitol, who is responsible for the
             maintenance, operation, development, and preservation of the Library of
             Congress* buildings.


3.   Page 4, paragraph 4, line 7 and page 8 compares the Library of Congress to the World
     Bank. However, comparing the Library of Congress with a well-funded quasi-
     government agency, which operates under a revolving fund, is not a fair comparison. The
     World Bank's resources are far greater than the Library of Congress for the employment
     of space utilization. The World Bank staff is twice the size of the Library of Congress,
     and its functions are not as varied.

4.   Page 8, bullet 7 references 48 facility projects completed by FD&C last year, in
     comparison to the World Bank's 300-500 completed projects. The following is a more
     accurate account of Library space-related projects completed by FD&C in FY04:
            Last year, the Library's FD&C of Facility Services, Integrated Support Services
            completed 48 major facility plan projects (major projects involve some AOC
            construction work), and 1,100 Requests for Service related to small moves and
             space-related changes. Li addition, and the AOC completed over 100 physical
             plant projects to Library facilities such as upgrades, maintenance and
             replacements.




                                            Page 1 of 6
ISS Responses to Recommendations:

Recommendation I.I: Establish an appropriate metric for space utilization and evaluate
each service unit for compliance. By establishing an appropriate standard for space
utilization the Library can work toward setting user's expectations for space and develop a
framework for the process of determining the allocation of space based on an actual metric
rather than an arbitrary method that is unclear to both the FD&C group and the user.
TSS response: Agree. - This was already in process
       FD&C had already incorporated this requirement to propose an appropriate standard for
Library space utilization into a task order for standards documentation through a current FD&C
consultant contract to develop standard office and workstation configuration. The deployment of
a new Computer Aided Facility Management (CAFM) System will help in the development of
appropriate metrics. The CAFM system is scheduled for installation fall 2005, but lack of
Congressional appropriations for facilities support funding has slowed data gathering required to
populate the system fully. ISS hopes to obtain some end-of-year FY05 funding to continue
collecting data.

Recommendation 1.2; Once the Library has determined the appropriate metric for space
utilization, they should present it to the Library's unions for approval. It has been RTKL's
experience that if the union representatives review and approve the metrics before
implementation, the process of implementation is improved.
TSS response; Disagree.
        After Facility Services has reviewed the consultant's recommendations and sought
informal input from the Library's experts in the Labor Relations Office for the appropriate space
utilization metric, ISS believes that this information should be presented first to the Deputy
Librarian for review and approval, and then, at the direction of the Deputy Librarian, to the
Library's Executive Committee for their review, approval and recommendation for next steps.

Recommendation 1.3; Consider implementing a process to charge Service Units for space
usage. RTKL's work with other organizations that developed processes to charge their
Business Units for space usage has shown that there is a positive incentive for the Business
Units to manage their space more efficiently.
TSS response; Disagree.
        This is not feasible, nor is it appropriate, since as a legislative branch agency, the Library
does not reimburse the Architect of the Capitol's appropriation for the space it occupies on
Capitol Hill, so it is not appropriate to charge the service units' appropriations for space
occupancy on Capitol Hill. In addition, Congress appropriates funds for infrastructure support
for the Library as part of the infrastructure budget in the ISS budget, separate from program
costs. Furthermore, ISS Facility Services is responsible for management of all Library space. It
is the ISS Facility Services role and responsibility to ensure that space is allocated to service
units in an efficient and consistent manner; it is not the service unit's responsibility.

Recommendation II.l; Development of consistent written space standards for long-term


                                               Page 2 of 6
implementation that relate to job function (such as cataloging) rather than job level, in an
effort to manage workplace and space allocations.
ISS response: Agree. - Tliis was already in process
        FD&C had already incorporated this requirement into a task order for standards
documentation through an existing FD&C contract.

Recommendation II.2; Create no more than three difference office sizes and configurations
to be used for any future projects. This will provide flexibility for workers to move without
costly changes and modifications.
TSS response; Disagree.
       This is not a practical recommendation given the variations in the job functions
throughout the Library. A maximum of only three office sizes and workstation configurations
does not provide sufficient flexibility to adequately address the Library's needs. FD&C's recent
experience with redesigning the Copyright Office reveals the need for at least 5 or more typical
workstation configurations.

Recommendation II.3: Present standards to the Library's unions for approval prior to
implementation so that the unions do not have to review every modification made to a
service unit. The unions will only need to review the user's space assignments once the
physical modification is made.
TSS response: Disagree.
        Even if the unions had a right to negotiate over the number of standard designs the
Library used (and that is not an established right), and even if the unions "approved" of a
standardized number of designs (and there is no guarantee they will), that is only Vz half of the
equation. The controlling statutory authority governing labor management relations in the
federal sector provides that the exclusive representative (i.e., a labor organization) has the right to
bargain with an agency over the changes in conditions of employment that affect the bargaining
unit employees it represents. If a particular standardized scheme affects particular employees the
union may have a right to consult with the affected employees and present negotiable impact and
implementation proposals to the agency.

        Presently the three contracts covering non-police positions in the Library each have
different provisions addressing the relocation of bargaining unit employees (i.e., the AFSCME
2477 collective bargaining agreement requires that the Library give written notice to the union of
a decision to relocate ten or more employees and negotiate any impact that materially and
substantially affects the working conditions of these employees involved in such a relocation).
Since each future space move will affect different employees under different collective
bargaining agreements, including future employees not yet hired, it is doubtful that the unions
would agree to essentially waive future bargaining rights they now enjoy.

Recommendation IIT.l: Develop guidelines for appropriate planning ratios based on job
function that work within the physical parameters of the Madison Building.
TSS response: Agree. - This was already in process
       FD&C had already incorporated this requirement into a task order for standards

                                               Page 3 of 6
documentation through an existing FD&C contract.


Recommendation III.2: Begin implementation of planning ratios as projects are approved
to move forward.
ISS response; Agree.
        FD&C plans to begin applying a planning ratio to new projects as these are approved for
division-wide (or larger) space modifications, (1) once guidelines for planning ratios have been
proposed by the consultant and approved by the Library, and (2) once the planned CAFM System
is fully operational.


Recommendation IV.I; Develop a consistent approach for spatial planning, including
zoning support vs. office function for typical floor and strategies for centralized common
support space.
ISS response; Agree. - This was already in process
       FD&C had already incorporated this requirement into a task order for standards
documentation through an existing FD&C contract.


Recommendation IV.2; Develop strategy to maximize worker access to natural daylight
and views to the outdoors in an effort to maximize workers productivity and job
satisfaction.
ISS response; Agree with underlying principle but disagree with recommendations to develop a
strategy for implementation.
        While ISS concurs with this concept in principle, and follows it in general whenever
possible, many factors must be balanced in making and changing actual space assignments and
access to windows is only one of the many factors that must be considered. Additional cost
benefit and productivity analysis for Library personnel would be required before implementing
this beyond its current application.

Recommendation IV.3; Consolidate and centralize the conference and training rooms into
one area located centrally on each floor. Assign an office responsibility for handling the
reservations for these rooms.
ISS response; Agree with the underlying principle but disagree with the specifics of one
conference area per floor.
        While ISS concurs with some aspects of this recommendation in principle, there are many
factors which must be considered. Public meeting space scheduling is already handled centrally
for the whole Library by the ISS Public Programs Office for several decentralized meeting
locations. This recommended principle is being followed for the Copyright Office re-engineering
renovation with a central meeting/training area. The management of this area will be handled by
that service unit for its employees that may occupy multiple floors. However, this general
approach would be more practical to implement on a service and support unit basis, rather than
by floor, since many service units occupy more than one floor.

Recommendation V.I; In conjunction with the recommendations in Finding II, develop
consistent workplace standards that support current best practices and productive

                                            Page 4 of 6
workplace environments.
ISS response; Agree. - This was already in process
        FD&C had already begun working to develop such workplace standards by incorporating
this requirement into a task order for an existing FD&C contract.


Recommendation V.2: Develop workstation standards that meet all current ergonomic
standards and functional requirements.
TSS response; Disagree.
        ISS does not need to develop such standards because they already exist and have been
fully implemented by FD&C for the past several years. FD&C already incorporates ergonomic
standards into all new workstation designs. FD&C is also currently implementing a multi-year
Congressionally-funded project for systematic ergonomic upgrades for 80% of the workstations
in the Madison building.

Recommendation V.3; Establish consistent filing standards and consider more efficient
storage methods, such as high density filing systems. FD&C should conduct a cost/benefit
analysis to determine the benefit of compact shelving as well as consult with the AOC to
assess structural load issues.
ISS response; Agree to develop shelving standards. Disagree that FD&C conduct cost benefit
analysis.
        ISS has interpreted this recommendation as referring to standards for shelving of
collections (not to filing standards for paper files). However, shelving of collections is a service
unit responsibility, not an ISS Facility Services responsibility. FD&C has issued a task order to a
design firm to develop proposed shelving standards for Library collections to include compact
shelving. FD&C will provide this analysis to service units for their use in developing their own
costftenefit analysis since they are the ones responsible for purchasing shelving for collections.
FD&C will confer with AOC on structural load issues in reference to potential compact shelving.

Recommendation V.4; Establish consistent standards for support areas.
ISS response; Agree.
        FD&C has already developed a typical design for administrative support areas, e.g. copier
space, and will apply this approach in the future for division-wide, or larger, redesigns.

Recommendation V.5; Develop consistent standards for technology in support spaces such
as meeting rooms.
ISS response; Disagree.
       Facility Services does not determine what technology will be available in service unit
support spaces. Service units arrange for installation of technology capabilities in their own
support spaces according to their changing requirements.


Recommendation V.6; Develop standards that maximize employee access to natural light.
ISS response; Disagree.
        While Facility Services agrees with this concept in principle and applies it whenever
feasible, ISS disagrees with developing standards for this, as described in ISS response to VI.2.

                                             Page 5 of 6
 Recommendation VI.l: Develop a long-term strategic plan that identifies potential
 vacancies, a timetable for available space, and establish long-term space management plan.
 ISS response; Agree in part.
        There is no way for ISS to determine "potential vacancies" of staff. However, the Space
Management Module of the CAFM system will help support creating a timetable for available
space and also will support long-term space management planning. The MBRS space, soon to be
vacated, that has not already been planned for re-utilization, will be re-designed in FY06 for
FY07 installation, based on funding approval. No vacant space was created on Capitol Hill when
the ACF was set up in Manassass; the ACF houses only a few ITS staff members and their
former workstations on Capitol Hill and already utilized for other purposes.


Recommendation VI.2: Identify and quantify potential under-utilized space within the
Madison Building to serve as swing space during re-design projects.
ISS response: Agree.
       The Committee on Homeland Security of the U.S. Congress is currently occupying the
Library's main swing space in the Adams Building. Two smaller swing spaces have recently
been allocated - the Madison building swing space (LM-241) is currently in use and other
Adams building swing space (LA-139) is planned for construction in May 2005.


Recommendation VI.3: Determine the feasibility of moving Library operations located at
Taylor Street Annex to the Capitol Hill complex based on opportunities for greater
efficiency in space utilization and space being vacated for relocation to off-site facilities.
ISS response: Disagree.
The National Library Service for the Blind and Physically Handicapped (NLS/BPH) staff and
operations have very specialized needs which were not as well supported when NLS was located
on Capitol Hill many years ago. NLS/BPH currently occupies more than 88,000 sq. ft. of space
at Taylor St. This is a major space requirement. NLS/BPH has its own significant material
management requirements including shipping facilities, talking book and braille storage,
equipment storage, equipment repair facilities, and loading dock operations which are much
more efficiently operated from the Taylor Street location than they could be on Capitol Hill,
especially with the tighter perimeter security requirements now on Capitol Hill. The
requirements of the special needs of the staff and operations at Taylor Street as well as the
existing space requirements on Capitol Hill does not make this a feasible alternative.




                                             Page 6 of 6
